<html>
<title> - URGING ADHERENCE TO THE ``ONE COUNTRY, TWO SYSTEMS`` POLICY AS PRESCRIBED IN THE JOINT DECLARATION BETWEEN THE GOVERNMENT OF GREAT BRITAIN AND THE GOVERNMENT OF THE PRC ON THE QUESTION OF THE HONG KONG; HONORING THE LIFE AND LEGACY OF LIU XIAOBO; NORTH KOREA TRAVEL CONTROL ACT; AND TO DIRECT THE SECRETARY OF STATE TO DEVELOP A STRATEGY TO REGAIN OBSERVER STATUS FOR TAIWAN IN THE WORLD HEALTH ORGANIZATION, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








    URGING ADHERENCE TO THE ``ONE COUNTRY, TWO SYSTEMS'' POLICY AS 
  PRESCRIBED IN THE JOINT DECLARATION BETWEEN THE GOVERNMENT OF GREAT 
BRITAIN AND THE GOVERNMENT OF THE PRC ON THE QUESTION OF THE HONG KONG; 
HONORING THE LIFE AND LEGACY OF LIU XIAOBO; NORTH KOREA TRAVEL CONTROL 
  ACT; AND TO DIRECT THE SECRETARY OF STATE TO DEVELOP A STRATEGY TO 
REGAIN OBSERVER STATUS FOR TAIWAN IN THE WORLD HEALTH ORGANIZATION, AND 
                           FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

           H. Res. 422, H. Res. 445, H.R. 2732 and H.R. 3320

                               __________

                             JULY 27, 2017

                               __________

                           Serial No. 115-60

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-429PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 422, Urging adherence to the ``one country, two systems'' 
  policy as prescribed in the Joint Declaration between the 
  Government of the United Kingdom of Great Britain and the 
  Government of the People's Republic of China on the Question of 
  the Hong Kong..................................................     2
H. Res. 445, Honoring the life and legacy of Liu Xiaobo for his 
  steadfast commitment to the protection of human rights, 
  political freedoms, free markets, democratic elections, 
  government accountability, and peaceful change in the People's 
  Republic of China..............................................     8
  Amendment to H. Res. 445 offered by the Honorable Brad Sherman, 
    a Representative in Congress from the State of California....    12
H.R. 2732, To prohibit travel-related transactions to, from, and 
  within North Korea by persons subject to the jurisdiction of 
  the United States, and for other purposes......................    13
  Amendment in the nature of a substitute to H.R. 2732 offered by 
    the Honorable Brad Sherman...................................    17
H.R. 3320, To direct the Secretary of State to develop a strategy 
  to regain observer status for Taiwan in the World Health 
  Organization, and for other purposes...........................    25

                                APPENDIX

Markup notice....................................................    36
Markup minutes...................................................    37
Markup summary...................................................    38
 
    URGING ADHERENCE TO THE ``ONE COUNTRY, TWO SYSTEMS`` POLICY AS 
  PRESCRIBED IN THE JOINT DECLARATION BETWEEN THE GOVERNMENT OF GREAT 
BRITAIN AND THE GOVERNMENT OF THE PRC ON THE QUESTION OF THE HONG KONG; 
HONORING THE LIFE AND LEGACY OF LIU XIAOBO; NORTH KOREA TRAVEL CONTROL 
  ACT; AND TO DIRECT THE SECRETARY OF STATE TO DEVELOP A STRATEGY TO 
REGAIN OBSERVER STATUS FOR TAIWAN IN THE WORLD HEALTH ORGANIZATION, AND 
                           FOR OTHER PURPOSES

                        THURSDAY, JULY 27, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order.
    Good afternoon, everybody. We have called this markup to 
order today to consider four important measures that touch on 
pressing challenges the United States faces in the Asia-Pacific 
region. After the conclusion of this brief business meeting we 
will proceed immediately to our scheduled hearing on the 
administration's fiscal year 2018 state and foreign operations 
budget request for the East Asia and Pacific region.
    Pursuant to notice, we have four bipartisan measures on our 
agenda this afternoon. As members were notified yesterday, it 
is the intention of the Chair to consider today's business en 
bloc so that we can proceed promptly to our hearing. All 
members may have 5 days to insert remarks into the record and 
without objection, the following measures and amendments will 
be considered en bloc: H. Res. 422, urging adherence to the one 
country, two systems policy as prescribed in the Joint 
Declaration between the Government of the United Kingdom of 
Great Britain and the Government of the People's Republic of 
China on the Question of Hong King; H. Res. 445, honoring the 
life and legacy of Liu Xiaobo for his steadfast commitment to 
the protection of human rights, political freedoms, free 
markets, democratic elections, government accountability, and 
peaceful change in the People's Republic of China, and Sherman 
Amendment 20 to H. Res. 445; H.R. 2732, the North Korea Travel 
Control Act, with Sherman Amendment 21 in the nature of a 
substitute to H.R. 2732; and H.R. 3320, to direct the Secretary 
of State to develop a strategy to regain observer status for 
Taiwan in the World Health Organization, and for other 
purposes.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Yoho. Before turning to our ranking member, I recognize 
myself to speak on today's business.
    H. Res. 422, introduced by Ranking Member Engel, will help 
draw greater attention to recent developments in Hong Kong 
where actions by the Government of China have interfered in 
Hong Kong's autonomy and caused the civil liberties--and caused 
a chill in civil liberties. The erosion of the one country, two 
systems policy threatens to destroy what makes Hong Kong unique 
and vibrant, so I commend the ranking member for introducing 
this legislation.
    Congressman Meadows' H. Res. 445 honoring the life of Liu 
Xiaobo is a fitting way for the Congress to pay its respect to 
this remarkable proponent of democracy and Nobel Prize winner. 
Liu's widow, Liu Xia, remains detained by the agents of the 
Chinese Government, raising the same concerns about access to 
quality medical care that have been implicated in her husband's 
death while he was in prison.
    Ranking Member Sherman's amendment will strengthen the 
resolution as it relates to Liu Xia. I am proud to support this 
amendment as well as the underlying text.
    Congressman Schiff's North Korea Travel Control Act will be 
an important way for Congress to refine the administration's 
recently-announced policy of banning travel to North Korea. I 
am looking forward to sending this along to the full committee 
with the fixes made by Ranking Member Sherman's substitute 
amendment so we can get this important policy right.
    Finally, H.R. 3320 responds to Taiwan's disinvitation from 
the World Health Assembly this year. U.S. efforts led Taiwan's 
inclusion over the last several years. And Taiwan punches above 
its weight in the fight against global disease. Unfortunately, 
China has taken a short-sighted policy to expel Taiwan from 
this forum, and restricts its overall international space.
    This legislation will update U.S. law on Taiwan's 
participation in the WHO to improve our strategy to promote 
Taiwan's place in the world health.
    I now recognize our ranking member, Mr. Sherman, for any 
remarks he may have.
    Mr. Sherman. Thank you, Mr. Chairman. I am pleased that we 
have in front of us four excellent bills and that they are 
bipartisan, as the work of our committee usually is. I support 
all four bills, namely the ones regarding Hong Kong, China, 
North Korea, and Taiwan. I am a co-sponsor of all four.
    The first bill, H. Res. 422, urges autonomy for Hong Kong 
that is consistent with the one country, two systems policy. It 
is critical that we send a strong message to China that we 
value our relationship with Hong Kong, and that our relations 
with the People's Republic will suffer if the PRC seeks to 
interfere with the democratic processes in Hong Kong.
    The second bill, H. Res. 445, honors the life and legacy of 
Liu Xiaobo for his commitment to human rights and political 
freedoms in China. Liu received the Nobel Peace prize in 2010. 
He died, unfortunately, earlier this month while serving an 11-
year prison sentence, and died in part due to inadequate 
medical care.
    My amendment to this bill seeks protection for Mrs. Liu 
Xia, the widow of Mr. Liu. This amendment urges the United 
States Government to continuously advocate for Liu Xia's 
release when meeting with Chinese authorities. It arises from 
suggestions from our colleague, Congressman Levin.
    The third bill is H.R. 2732, the North Korea Travel Control 
Act, which requires travel restrictions on travel to North 
Korea. This bill is authored by Representative Schiff and Joe 
Wilson, and includes provisions that will prevent tourist 
travel while allowing limited legitimate travel to North Korea.
    I, as you noted in your opening statement, Mr. Chairman, 
have an amendment in the nature of a substitute to this bill 
that I believe reflects the consensus of the leadership of both 
this subcommittee and our full committee.
    The State Department has also announced that it will have a 
policy to heavily restrict travel to North Korea. The State 
Department is correct to restrict travel to North Korea and, in 
effect, eliminate tourism to North Korea. However, we should 
make it--make sure that aid workers, journalists, NGOs, and 
experts are able to travel to North Korea when they can shed, 
especially if they can shed light on conditions there. We 
should allow travel when circumstances allow.
    It is doubtful that we can enact this legislation in time 
for so that it goes into effect before the State Department's 
restrictions go into effect. So I hope this bill will serve as 
a strong statement to the State Department that they need to 
make sure in their action, and it will be their action that 
will govern at least for awhile, ensure that the humanitarian 
relief workers, journalists, and some other limited categories 
of travelers, to include people traveling for family reunions, 
may travel to North Korea when appropriate.
    Finally, the fourth bill, H.R. 3320, asks the Secretary of 
State to develop a strategy to regain observer status for 
Taiwan in the World Health Organizations. This is important for 
world health. You can't exclude a country like Taiwan for 
political reasons if you are concerned with fighting disease 
that affects people all over the world. Our chairman has also 
indicated why this bill is important.
    So I would hope that we would ultimately move to adopt my 
two amendments and then to pass en bloc all four of these bills 
with the support of this subcommittee to the full committee.
    And I would yield back.
    Mr. Yoho. I thank the ranking member for his comments. We 
will next go to Mr. Steve Chabot from Ohio.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    The measures being considered today are both timely and 
important. First of all I would like to speak on H. Res. 422, 
urging China to adhere to the one country, two systems policy 
with respect to Hong Kong.
    The United States-Hong Kong relationship runs deep. 
Unfortunately, it has become abundantly clear in recent years 
that China is taking systematic steps to limit and restrict the 
autonomy of Hong Kong and its people. Less than 2 weeks ago 
four legislators were disqualified from serving on Hong Kong's 
legislative council, or LegCo. All of these disqualified 
members represent new political parties that support greater 
autonomy for Hong Kong and self-determination of the city's 
future relationship with China.
    To add insult to injury, they are expected to pay hundreds 
of thousands of dollars in fees for the government's legal 
costs. This development to me reeks of China's central 
government attempting to purge the LegCo of its pro-democracy 
members.
    Now, none of this is really surprising. However, it 
emphasizes the importance of our support for the original 
agreement that was struck between the U.K. and China as it 
pertains to Hong Kong. That is exactly why I stand with my 
colleagues who worked on H. Res. 422 as we together we want to 
ensure that China adheres to the one country, two systems 
policy and respects the rights of our brave friends in Hong 
Kong.
    Lastly, I would like to voice my support for H.R. 3320 I am 
also a sponsor of. This bill requires that the State Department 
develop a strategy for Taiwan to regain its inclusion in the 
World Health Organization. Taiwan is an important contributor 
to global health and has provided great research and 
development to help combat some of the world's worse diseases. 
I believe it would behoove our partners around the world to 
give Taiwan a seat at the table at the very least.
    I will add that almost 20 years ago I introduced the first 
WHO Taiwan resolution, H. J. Res. 126, along with my colleagues 
and Representative Sherrod Brown. Not sure whatever happened to 
him. He is over in the Senate now.
    I have long supported Taiwan's participation at the WHO, 
and I am proud to be showing that continued support today.
    I would also mention that relative to Taiwan, way back in 
the day, my friend and colleague, Mr. Rohrabacher, and I were 
the two Republicans who were co-founders of the Congressional 
Taiwan Caucus along with two Democrats, one being that, that 
other guy from Ohio, Sherrod Brown, that I just mentioned, and 
Bob Wexler, Robert Wexler from, from Florida. Florida started 
that and here at least the two of us still are.
    Mr. Rohrabacher. My, we are getting old.
    Mr. Chabot. For those who could not hear it, Mr. 
Rohrabacher commented that he and I are both getting old. And 
he is right.
    Okay, yield back.
    Mr. Yoho. I thank the gentleman. I appreciate your 
comments.
    Mr. Perry, do you have any comments?
    Then we will next go and recognize Mr. Joe Wilson from the 
great State of South Carolina.
    Mr. Wilson. Thank you, Chairman Ted Yoho for your 
leadership and for the opportunity to speak before the 
committee today on H.R. 2732, the North Korea Travel Control 
Act.
    When Congressman Adam Schiff and I introduced this 
bipartisan legislation in May, Otto Warmbier was still being 
held illegally by the tyrannical regime in North Korea. In the 
weeks following, a tragedy unfolded. Otto, a UVA student, 
returned to the United States but in a coma from which he never 
recovered.
    Sadly, Otto's story, while tragic, is not unique. Otto was 
one of 17 Americans detained by North Korea in the last 10 
years. Three are still being held.
    I have traveled to North Korea on a congressional 
delegation in 2003, led by the former Congressman Curt Weldon, 
which had been invited to the city of Pyongyang after Baghdad 
had been liberated, getting the attention of the dictator. 
While there I saw firsthand how every dollar in North Korea, 
including the revenue from tourism, goes toward subjugation of 
its citizens and toward the very weapons development program it 
uses to threaten American families.
    Additionally, the regime also has no reservations about 
illegally detained Americans as bargaining chips in an attempt 
to score credibility on the world stage. However, despite the 
risks and despite knowing how the regime uses tourist revenue, 
Western tourism to the regime is increasing, even knowing they 
could be incarcerated.
    It is time that we enact meaningful restrictions on tourist 
travel to totalitarian North Korea. I urge the passage of this 
legislation.
    I yield back.
    Mr. Yoho. Thank you, Mr. Wilson.
    The Chair will now recognize Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And thanks to the 
ranking member, Mr. Sherman, for bringing these bills to the 
subcommittee for its consideration today.
    These measures reinforce longstanding U.S. foreign policy 
with respect to Taiwan and Hong Kong; protect U.S. citizens 
from the risks of travel to North Korea; and honor a giant of 
the Chinese human rights movement, who will not be forgotten, 
Liu Xiaobo.
    I would like to talk in particular about two of the four 
measures. I support all four.
    H.R. 3320, to direct the Secretary of State to develop a 
strategy to regain observer status for Taiwan in the World 
Health Organization.
    As co-chair of the Congressional Taiwan Caucus I 
particularly want to thank you, Mr. Chairman, for introducing 
H.R. 3320 and for inviting me to be an original co-sponsor of 
this bill, which recognizes Taiwan's longstanding participation 
in the World Health Organization and works to improve U.S. 
strategy for promoting Taiwan's observer status going forward.
    Public health should not be a political football. Taiwan's 
meaningful participation in the World Health Assembly is in the 
best interests not only of the people of Taiwan but of the 
entire international community. Taiwan has been a critical 
partner in numerous global health issues, including the Ebola 
crisis, and the United States should continue its support of 
Taiwan's engagement with the World Health Organization and 
other international organizations to address global health and 
disease prevention needs.
    The spread of diseases, especially our concern about 
endemic viruses that could cross boundaries in a second, does 
not respect political delineations. Taiwan is no different. We 
need Taiwan's help and participation in the full international 
health community.
    The second bill I wanted to address, Mr. Chairman, is H.R. 
2732. I also am co-chair of the Korea Caucus and also glad to 
be an original co-sponsor of H.R. 2732, the North Korea Travel 
Control Act. The North Korean regime's fatal exploitation of a 
Virginia student, college student Otto Warmbier, demonstrates 
the extreme risks facing any American who visits that rogue 
state.
    During the past 2 years, Kim Jong Un's regime has arrested 
three other Americans, including another Virginian, Kim Dong 
Chul, who remain in detention today. This bill protects U.S. 
citizens from the risks of travel to North Korea by restricting 
travel that would pose an imminent danger to the public health 
or the physical safety of United States travelers. The 
legislation provides important exceptions for several travel 
purposes, including professional reporters, compelling 
humanitarian considerations, official U.S. Government travel, 
official intergovernmental organizational business, family 
reunifications, or other licenses issued by the United States 
Treasury Department.
    I urge adoption of all four measures before us. I thank the 
chair and ranking member for their consideration and support.
    Mr. Yoho. Thank you, Mr. Connolly, for the comments.
    Hearing no further requests for recognition, the question 
occurs on approving the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    Mr. Sherman. Mr. Chairman, a clarification. We are not 
only--we are adopting my two amendments and.
    Mr. Yoho. Thank you for that clarification.
    Mr. Sherman. Thank you.
    Mr. Yoho. The question occurs on approving all items 
considered en bloc, including all amendments.
    And, again, all those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
items considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported to the full committee, as amended, 
and the staff is directed to make any technical conforming 
changes.
    That concludes the markup. The subcommittee stands 
adjourned.
    [Whereupon, at 2:54 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre></body></html>
